             National Science Foundation   •   4201 Wilson Boulevard      •   Arlington, Virginia 22230
                                        Office of the Inspector General

MEMORANDUM

DATE:        September 21, 2010

TO:          Gregory Steigerwald, Acting Director
             Division of Acquisition and Cooperative Support (DACS)

FROM:        Dr. Brett Baker /s/
             Assistant Inspector General for Audit

SUBJECT: NSF OIG Audit Report OIG-10-1-010, Audit of Government Owned Equipment Purchased
         Under NSF’s Contract With Consortium for Ocean Leadership


The NSF OIG contracted with DCAA to perform an audit Government Owned Equipment (GOE) property
controls and related internal controls in the custody of the Texas A&M Research Foundation (TAMRF)
purchased under NSF’s International Ocean Drilling Program (IODP) Contract No. OCE-0352500 with
Consortium for Ocean Leadership (COL) valued at $38,730,987 TAMRF is a subcontractor to COL,
formerly Joint Oceanographic Institutions (JOI), for the modification and operation of the U.S. Riserless
ocean drilling vessel (JOIDES RESOLUTION) and related activities. Specifically, TAMRF conducts
riserless drillship operations; conducts platform-related tool development; and provides expedition staffing,
logistics, program-specific engineering development, outfitting of shipboard laboratories, shipboard- and
shorebased-curation, and distribution of core samples and data. Texas A&M University further
subcontracted with Overseas Drilling Limited (ODL) to provide a Scientific Ocean Drilling Vessel (SODV)
which is properly constructed, prepared, manned and equipped for Phase 2 International Ocean Drilling
Program (IODP) operations at sea, on or around the spring-summer of 2007. In order to modify the ship to
the necessary requirements specified in the NSF IODP contract, ODL subcontracted with Jurong Shipyard
PTE LTD located in the Republic of Singapore to convert, outfit, furnish and equip the “JOIDES
Resolution” riserless drilling vessel.

Summary Analysis

DCAA examined TAMRF’s property controls using the Federal Acquisition Regulation, Cost Principles for
Non-Profit Organizations in OMB Circular A-122, Cost Accounting Standards, the Subcontract Terms and
Conditions, and TAMRF’s written policies and procedures governing GOE. Specifically, DCAA tested
TAMRF’s internal controls relating to the safeguarding of GOE, restricting access to TAMRF’s property
system, evaluating the property system’s internal controls, and evaluating TAMRF’s internal controls over
lower-tier subcontractor property systems.
DCAA determined that TAMRF’s property control system for GOE and its related internal controls and
procedures are adequate for accounting and controlling GOE. Furthermore, DCAA determined that the
TAMRF property system is operating effectively.

DCAA has also been contracted to perform an incurred cost audit on NSF Award No. OCE-0352500 for
costs claimed on NSF’s contract with the Joint Oceanographic Institute/Consortium of Ocean Leadership
(JOI/COL) for FY 2006-2007, for which TAMRF is a subawardee. The results of the costs incurred on the
TAMRF subaward is incorporated in the JOI/COL incurred cost audit reports and is provided to NSF in OIG
Audit Report Nos. 10-1-014 and 10-1-015.

We are providing a copy of this memorandum to the Division Director, OCE (OCE) and the OCE
Contracting Officer’s Technical Representative. The responsibility for audit resolution rests with DACS.
Accordingly, we ask that no action be taken concerning the report’s findings without first consulting DACS
at (703) 292-8242.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the Office of
Inspector General:

      •   Reviewed DCAA’s approach and planning of the audit;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss audit progress,
          findings and recommendations;
      •   Reviewed the audit report prepared by DCAA to ensure compliance with Generally Accepted
          Government Auditing Standards and Office of Management and Budget Circulars; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on TAMRF and the conclusions expressed in the
report. The NSF OIG does not express any opinion on TAMRF’s property system, related internal controls,
or the conclusions presented in DCAA’s audit report.

We thank you and your staff for the assistance extended to us during the audit. If you have any questions
about this report, please contact Kenneth Stagner at (303) 312-7655 or Jennifer Jenkins at (703) 292-4996.


Attachment 1: DCAA Audit Report No. 3311-2009K17900005, Audit Report on Assist Audit of
            Government Owned Equipment Purchased under NSF Contract No. OCE-0352500

cc:       Martha Rubenstein, CFO and Director BFA
          Mary Santonastasso, Division Director, DIAS
          David O. Conover, Division Director, OCE
          Mary Rouse, Contracting Officer, DACS
          James F. Allan, COTR, OCE
          Carolyn Ann Smith, Policy Analyst and OIG Liaison, DACS



                                                      2
